Depafiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




EXCEPTIONS TO WAGE WITHHOLDING
       FOR CHILD SUPPORT




            MARCH   1994   OEI-07-91-01220
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of James
Wolf, Regional Inspector General. Project staff

REGION                                                       HEADQUARTERS

Raymond Balandron, Project Leader	                           David Wright, Program Specialist
                                                             Barbara Tedesco, Mathematical
                                                             Statistician



For additional copies of this report, please contact the Kansas City Regional Office at (816)
426-3697.
    Depafiment of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    EXCEPTIONS TO WAGE WITHHOLDING
           FOR CHILD SUPPORT




I                  w            A




                       MARCH   1994
              EXECUTIVE                          SUMMARY

PURPOSE

To assess the extent that States are requiring immediate wage withholding by Child
Support Enforcement    (CSE) agencies forabsent   parents ordered topay child support.

BACKGROUND

The Child Support Enforcement      Amendments    of 1984 (P.L. 98-378) added sections
454(2) and 466 to Title IV of the Social Security Act. These sections require all States
to implement certain mandatory procedures which have proven to noticeably increase
the effectiveness of State programs, including procedures for wage withholding.

Section 101 of the Family Support Act of 1988 (P.L. 100-485) amended section 466 of
the Act, requiring States to enact laws and implement procedures for immediate wage
withholding in certain cases being enforced by the IV-D agency which administers the
child support enforcement provisions.    Under amended section 466(b)(3), a new
subparagraph    (A) provided, effective November 1, 1990, that immediate withholding is
required for ~ IV-D cases with new or modified support orders regardless of the
support payment status.

This provision, however, allowed exceptions to wage withholding if one parent
demonstrates,   and the court or administrative authority finds good cause not to require
wage withholding, or if both parents agree in writing to an alternative arrangement.
Section 466(b)(3)(A) of the Act, as implemented     by Federal regulations 45 CFR Part
303. 100(b)(2) and (b)(3), establishes minimum definitions of “good cause” and “written
agreement.”

FINDINGS

State CSE agencies are essentially comp&ing with the provikion for immediate wage
withholding in IV-D child support ordem

Our study found that in most IV-D child support orders, State CSE agencies are
including and enforcing an immediate wage withholding provision.    our analysis of a
sample of child support cases reviewed identified four groups of cases. These groups
are: (I) Cases with wages withheld, (II) Cases where an exception to wage withholding
was granted, (III) Cases where there are no wages to withhold, and (IV) Cases with
no provision for wage withholding in the order.

National estimates calculated for the four groups of child support cases substantiated
that overall there is not a problem with the exclusion of immediate wage withholding
in IV-D child support orders. We determined that:



                                             i
  ��
       State CSE agencies are enforcing   immediate   wage withholding   in 91,8% of
       child support orders.

  .	   State CSE agencies are granting very few exceptions to immediate wage
       withholding in IV-D child support orders. They are granting exceptions in only
       1.370 of child support orders.

  .	   In cases where there is no income to withhold      because the absent parent is
       unemployed, self-employed, on assistance, etc.,     State CSE agencies are
       including a stipulation for wage withholding in    6.3% of child support orders.
       The inclusion of this stipulation authorizes the   CSE agencies to enforce wage
       withholding at any future time without further     order by the court.

  .	   State CSE agencies do not include an immediate wage withholding provision
       nor explicitly grant an exception in only 0.6?4 of child support orders.

CONCLUSION


As indicated in the findings, State CSE agencies are essentially complying with section

466(b)(3)(A) of the Act. Because of the significantly high level of compliance in this

area, we are not making any formal recommendation        for action by the Administration

for Children and Families (ACF) in our report, It should be noted, however, while

the noncompliance     is minimal, the exclusion of the wage withholding provision

requires future modification of the orders before withholding of payments can be

initiated and it prolongs the time the children are deprived of support dollars.

Therefore, ACF may wish to remind States to ensure compliance in each and every

case.





                                             ii
                     TABLE                     OF CONTENTS


                                                                                                                   PAGE


EXECUTIVESUMMARY                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...   . . ...1


FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


CONCLUSION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


APPENDIX


   A.   Breakdown       of Sampled        Child Support         Cases Reported           by State       . . . . . . . A-1

                          INTRODUCTION


PURPOSE


To assess the extent that States are requiring immediate wage withholding by Child

Support Enforcement    (CSE) agencies for absent parents ordered to pay child support.


BACKGROUND


The Child Support Enforcement      Amendments    of 1984 (P.L. 98-378) added sections

454(2) and 466 to Title IV of the Social Security Act, requiring all States to implement

certain mandatory procedures, including procedures for wage withholding, which have

proven to noticeably increase the effectiveness of State programs.    Specifically, section

466 of the Act requires that States have in effect two distinct procedures for carrying

out a wage withholding program.


The first procedure, required under section 466(a)(1) and (b) of the Act, pertains to

cases being enforced through the IV-D agency which administers the child support

enforcement   provisions. Under this requirement,  States are required to have and use

a procedure under which wage withholding is initiated in all IV-D cases where

payments are in arrears by at least one month. States are also required to implement

wage withholding at any earlier date in accordance with State laws or at the request of

the absent parent.


The second procedure, required under section 466(a)(8)(A) of the Act, provides that

all new or modified orders issued in the State include a provision for wage withholding

when an arrearage occurs, in order to ensure that withholding is available without the

necessity of filing an application for IV-D services.


Section 101 of the Family Support Act of 1988 (P.L. 100-485) amended section 466 of

the Act, to require States to enact laws and implement procedures for immediate

wage withholding in certain cases being enforced by the IV-D agency. Under

amended section 466(b)(3), a new subparagraph      (A) provides, effective November 1,

1990, that immediate withholding is required for ~ IV-D cases with new or modified

support orders regardless of the support payment status. This section, however, also

provides that exceptions to wage withholding may be granted if one parent

demonstrates,   and the court or administrative authority finds good cause not to require

wage withholding, or if both parents agree in writing to an alternative arrangement.


Section 466(b)(3)(A) of the Act is implemented  by Federal regulations 45 CFR Part

303.100 (b)(2) and (b)(3) and establishes minimum definitions of “good cause” and

“written agreement.”





                                              1

  .	   Paragraph (b)(2) provides that, at a minimum, “goodcause’’m ustbebasedon
       “(i) a written determination   that, and explanation by the court or administrative
       authority of why, implementing immediate wage withholding would not be in
       the best interests of the child; and (ii) proof of timely payment of previously
       ordered support in cases involving the modification of support orders.”

  .	   Paragraph (b)(3) provides that “written agreement” means “a written alternative
       arrangement    signed by both the custodial and absent parent and, at State
       option, by the State in IV-D cases in which there is an assignment of support
       rights to the State, and reviewed and entered in the record by the court or
       administrative   authority.”

METHODOLOGY

We stratified 43 States and the District of Columbia into 4 strata based upon the size
of their 1990 average annual IV-D caseload. A fifth strata was made up of the
remaining seven States which had applied for and were granted an exemption to the
immediate wage withholding provisions.    Under State law, these seven States would
never grant an exception to wage withholding under any circumstances.

The source of the caseload information is the form OCSE-56 which lists the average
annual IV-D caseload for the last five fiscal years. The Policy Branch, Office of Child
Support Enforcement    (OCSE), provided us with the seven States which have been
granted an exemption to the wage withholding provisions.     They are Arizona, Hawaii
Illinois, Kentucky, New York, Ohio, and Wisconsin.

From the population of States we selected a stratified    random   sample   of 10. These
States are shown by strata in the following chart.


 STRATA      1        STRATA       2     STRATA     3    STRATA     4         STRATA         5

 Michigan*            Oregon             Oklahoma        Nevada               Hawaii

 Pennsylvania         Washington         Kansas          South Dakota         Arizona

* Michigan was excluded from the sample of States as it was not able to meet the
inspection’s data requirements.

We contacted each sample State and requested two lists of IV-D child support cases
for the review period February - April, 1993. The first was a list of all IV-D child
support cases in which a new or modified order was issued. The second list, a subset
of the first, was a more detailed list that identified the orders which were issued
without immediate wage withholding and the reasons for excluding the wage
withholding.




                                              2

All but one of the sampled States submitted the lists as requested.    That State,
Pennsylvania, submitted a copy of every child support order issued for the review
period. Of the remaining eight States, the two States in strata five have been granted
an exemption from the exception to wage withholding provision and included it in
every child support order issued during the review period. The lists submitted by the
rest of the States did identi& those cases where there was no wage withholding being
enforced.   However, in many of those cases it was difficult to determine the actual
reasons for the immediate wage withholding being excluded from the child support
orders.

For this reason, we recontacted those six States and requested copies of all the child
support orders for those cases with no wage withholding being enforced.   Upon
receipt of the requested orders, we conducted a review to determine the reasons for
nonenforcement    of immediate wage withholding.

As a result of our analysis of all the cases provided   by the States, we divided them into
four groups. The groups are:

Group I	      Wages Withheld - Cases which have an immediate wage withholding
              provision in the child support order and it is being enforced.

Group II	     Exceptions Granted - Cases in which an exception       was granted   for “good
              cause” or an “alternative arrangement.”

Group III	    No Wages Available - Cases where there were no wages to withhold at
              the time of the order, but the orders stipulated that immediate wage
              withholding could be enforced in the future without further order of the
              court.

Group IV	     No Provision for Wage Withholding - Cases which did not include any
              provision for immediate wage withholding in the child support orders
              nor explicitly provided for an exception.

Appendix A indicates the breakdown      of child support cases reported   by each sample
State for the review period February    1 through April 30, 1993.

In our calculation of national estimates for all child support cases, we took into
account that Michigan was excluded from the original sample of 10 States and its
effect on the first strata. Therefore, for purposes of calculating the variances of the
national estimates, Pennsylvania was combined with the two States in the second strata
(Oregon and Washington).      Consequently, the projected totals reported are for the
population excluding the State of Michigan.

The estimates were calculated based on our review of all cases within a State with the
exception of Pennsylvania.  Due to the large number of orders (over 24,000) sent to us
and the way in which they were organized, these child support orders were sampled.


                                              3

The variance within the State of Pennsylvania was ignored since we believe it to be
very small when compared to the overall variance of the sample.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                      FINDINGS


State CSE agencies are eswntially compljing with the provtion for immediate wage
withhokiing in IV-D child support ordem

Our study found that in most IV-D child support orders, State CSE         agencies are
including and enforcing an immediate wage withholding provision.         As indicated in the
following table, national estimates calculated for the four groups of    child support cases
substantiated  that overall there is not a problem with the exclusion    of immediate wage
withholding in IV-D child support orders.


 Type of Child Support      Order           Estimate          95% Confidence     Interval

 Group    I   - Wages Withheld              91.8%                80.1       -      100%

                                                                  0.0       -
 Group    II - Exceptions   Granted          1.3%                                    3.3%
                                                                                               I
 Group    111- No Wages Available            6.3%                 0.0       -       14.470
                                                                                               I
 Group    IV - No Provision   for Wage       0.6%                 0.32      -         0.88%
             Withholdirw

The table shows the estimated proportions for each of the four groups and the 95%
confidence intervals for these estimates. It shows that:

   .	    State CSE agencies are enforcing    immediate   wage withholding   in 91.89’o of
         child support orders.

   �	
         State CSE agencies are granting very few exceptions to immediate wage
         withholding in IV-D child support orders. We found that exceptions are being
         granted in only 1.3% of child support orders.

   .	    In cases where there is no income to withhold because the absent parent is
         unemployed, self-employed, on assistance, etc., State CSE agencies are
         including a stipulation for wage withholding in 6.3 YO of child support orders.
         This stipulation authorizes the CSE agencies to enforce wage withholding at
         any future time without further order by the court.

   .	    State CSE agencies do not include an immediate wage withholding provision
         nor explicitly grant an exception in only 0.6!Z0 of child support orders.




                                                5

                               CONCLUSION


As indicated in the findings, State CSE agencies are essentially complying with section
466(b)(3)(A) of the Act. Because of the significantly high level of compliance in this
area, we are not making any formal recommendation      for action by ACF in our report.
It should be noted, however, while this occurrence is minimal, the exclusion of the
wage withholding provision requires future modification of the orders before
withholding of payments can be initiated and it prolongs the time the children are
deprived of support dollars. Therefore, ACF may wish to remind States to ensure
compliance in each and every case.




                                            6

                                   APPENDIX                A


           Breakdown of Sampled Child Support Cases Reported

                      Period of Review February 1- April 30, 1993



 STATE          Group I            Group II
               Wages               Exceptions
               Withheld            Granted

 PA*                      18,885                1,134
 OR                        2,129                   11       -o- I     -O- II     2,140
 WA                        4,927                   17      199    I    42 II     5,185
 OK                        1,459                  -o-         21       11   II   1,472
 KS                        1,093                   26         31       22 II     1,144
 NV                        3,193                   52      547  I     288 II     4,080
 SD                          936                  -o-       -o- I      13 II       949
 HI                          333                  -o-       -o- I     -0-   II     333
 Az                          392                  -o-       71
                                                                      -0- L---!E
 TOTAL                    33,347                1,240     4.812       514 -

*The figures for Pennsylvania are estimated based upon a sample.




                                                   A-1

